                  Department of the Interior
                  Office of Inspector General




               Audit Report



                   U.S. Fish and Wildlife Service
        Wildlife and Sport Fish Restoration Program Grants
          Awarded to the American Samoa Government,
          Department of Marine and Wildlife Resources,
        From October 1, 2006, Through September 30, 2008




Report No.
R-GR-FWS-0006-2009                        December 2009
                 United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191
                                                                               December 7, 2009

                                      AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Suzanna I. Park
            Director of External Audits

Subject:    Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
            Grants Awarded to the American Samoa Government, Department of Marine and
            Wildlife Resources, From October 1, 2006, Through September 30, 2008
            (No. R-GR-FWS-0006-2009)

        This report presents the results of our audit of costs claimed by the American Samoa
Government, Department of Marine and Wildlife Resources (Department), under grants awarded
by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to American Samoa
under the Wildlife and Sport Fish Restoration Program (the Program). The audit included claims
totaling approximately $3.3 million on nine grants that were open during fiscal years (FYs)
ended September 30 of 2007 and 2008 (see Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $16,625 for ineligible and
unsupported charges to the grants. We also found that the Department (1) did not perform
required project-level accounting on six grants, (2) charged the labor of two Department
employees to the grants based on budget percentages rather than actual time worked, and (3) did
not track the maintenance and usage of property purchased with Program funds in accordance
with the applicable grant agreement.

        We provided a draft report to FWS for a response. We summarized Department and
FWS Region 1 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

      Please respond in writing to the findings and recommendations included in this report by
March 8, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Tim Horsma, or me at 703–487–5345.

cc:     Regional Director, Region 1, U.S. Fish and Wildlife Service
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States 2 to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. For certain government entities, including American Samoa, the Acts allow for full
reimbursement of eligible costs incurred under the grants. The Acts also require that hunting and
fishing license revenues be used only for the administration of the State’s fish and game agency.
Finally, federal regulations and FWS guidance require States to account for any income they
earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $3.3 million on the nine grants that were
open during FYs ended September 30, 2007 and 2008 (see Appendix 1). We report only on
those conditions that existed during this audit period. We conducted our audit at Department
headquarters in Fagatogo, American Samoa, and visited two boating access sites (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendments of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.
2
 The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico, the
Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.
                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, and drawdowns of
       reimbursements;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property; and

   •   determining whether American Samoa passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor accounting
systems and tested their operation and reliability. Based on the results of initial assessments, we
assigned a level of risk to these systems and selected a judgmental sample of transactions
recorded in these systems for testing. We did not project the results of the tests to the total
population of recorded transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On March 31, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the American Samoa Government, Department of Marine
and Wildlife Resources, from October 1, 2001, through September 30, 2003” (No. R-GR-FWS-
0013-2004). We followed up on all recommendations in the report and found that the
Department of the Interior, Office of Assistant Secretary for Policy, Management and Budget
(PMB), considered all 17 recommendations to be resolved and unimplemented. The
recommendation pertaining to project level accounting not performed is repeated in this report.
We discussed this recommendation in more detail in the Findings and Recommendations section
of this report. Documentation on the implementation of repeat recommendation should be sent
to PMB.

We reviewed American Samoa’s Single Audit report for FY2007 and determined that although
the Program grants were not specifically selected for testing, the audit identified significant
deficiencies in internal controls related to general accounting and grants administration.




                                                 3
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $16,625.
We discuss the findings in more detail in the Findings and Recommendations section.

       Questioned Costs. We questioned costs totaling $16,625 from ineligible expenditures
       for construction materials and labor and from unsupported fuel costs that were charged to
       the Program grants.

       Project Level Accounting Not Performed. The Department did not capture and record
       expenditure data at the project level for six grants, as required by the grant agreements for
       oversight purposes.

       Labor Charged to Grants Based on Budget Percentages. The Department based the
       labor costs of three Department employees on budget percentages rather than the actual
       time worked on grant-related activities.

       Questionable Grant Compliance. Department personnel did not track the maintenance
       and usage of a research vessel and boat lift purchased with Program funds in accordance
       with the applicable grant agreement.

Findings and Recommendations
A.     Questioned Costs – $16,625

       1. Ineligible Material and Labor Costs – $14,996

           The Department charged costs to four Program grants for the construction of a
           building to house a conference room and storage area at its headquarters offices.
           However, these expenses were not related to any of the grants’ objectives and were
           therefore ineligible under the grants. We determined that the Department charged
           $11,547 (federal share) for construction materials for the project. In addition, staff
           informed us that they assisted with the construction during work time and charged
           their labor to Grants F-2-R-32 and F-11-B-2. Because the staff’s timesheets did not
           sufficiently detail their work activities, the Department could only estimate the
           ineligible labor costs as $3,449. (Findings B and C of this audit report discuss
           problems with the Department’s payroll system in detail.)

           The Code of Federal Regulations (C.F.R.), in 2 C.F.R. § 225 Appendix A, Subsection
           C.1, (OMB Circular A-87), lists factors for determining whether costs are allowable.


                                                 4
To be allowable under federal awards, costs must be necessary and reasonable,
allocable and authorized, and adequately documented.

According to a Department official, the new facility benefits all of the Department’s
program areas, most of which are funded by Program grants. The Department
therefore allocated the related material and labor costs to various grants even though
they were not authorized costs under the grant agreements. We also noted that the
Department’s policies and procedures were not sufficient to ensure that only costs
related to the grant agreements were claimed for reimbursement. As a result, we are
questioning a total of $14,996, the federal share of the ineligible costs, as shown in
Table 1.

                                                            Questioned
                    Materials            Labor Charged        Costs
     Grant           Charged               (Estimated        (Federal
   Number        (Actual Amount)            Amount)           Share)
  F-2-R-31           $1,400                                  $1,400
  F-2-R-32            1,733                  $314             2,047
  F-11-B-2            5,734                 3,135             8,869
  FW-1-C-21           2,680                                   2,680
  Total             $11,547                $3,449           $14,996

Table 1. Questioned Costs Related to Ineligible Material and Labor Charges

Recommendations

We recommend that FWS:

1. resolve the $14,996 in questioned costs, and

2. require the Department to implement policies and procedures to ensure that only
   costs related to grant objectives are claimed for reimbursement.

Department Response

The Department concurred with the recommendations at the Exit Conference.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they
would work with the Department in developing a corrective action plan to resolve the
recommendations.

OIG Comments

Based on the FWS response, additional information is needed in the corrective action
plan, including:

                                     5
      •   the specific action(s) taken or planned to address the recommendations;

      •   targeted completion dates;

      •   titles of officials responsible for implementing the actions taken or planned;
          and

      •   verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Department.

2. Unsupported Fuel Costs – $1,629

   The Department uses Program funds to purchase fuel in bulk, which is delivered to
   the Department of Public Works (Public Works). Public Works issues fuel coupons
   to the Department so that it can obtain gas for its vehicles on an as-needed basis.
   However, we noted that Public Works reimburses the Department with coupons
   amounting to only 95 percent of the Department’s actual payment for fuel.

   To be allowable under federal awards, 2 C.F.R. § 225 Appendix A, Subsection C.1,
   (OMB Circular A-87) states that costs must be necessary and reasonable, allocable
   and authorized, and adequately documented. We found no policies or procedures to
   justify Public Works’ retention of a portion of the Department’s fuel coupons.
   Therefore, we are questioning 5 percent of the Department’s payments for fuel as
   unsupported, amounting to $1,629 on 8 grants (see Table 2).

                                            Questioned Costs
                    Grant Number            (Federal Share)
                      F-2-R-31                     $258
                      F-2-R-32                      692
                      F-10-E-5                      116
                      F-10-E-6                       58
                      FW-1-C-20                      77
                      FW-1-C-21                      71
                      W-1-R-22                      191
                      W-1-R-23                      166
                      Total                      $1,629

            Table 2. Questioned Costs Related to Unsupported Fuel Charges

   Recommendation

   We recommend that FWS resolve $1,629 in costs questioned as unsupported.




                                        6
        Department Response

        The Department concurred with the recommendations at the Exit Conference.

        FWS Response

        FWS Regional officials concurred with the recommendations and stated that they
        would work with the Department in developing a corrective action plan to resolve the
        recommendations.

        OIG Comments

        Based on the FWS response, additional information is needed in the corrective action
        plan, including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   targeted completion dates;

            •   titles of officials responsible for implementing the actions taken or planned;
                and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

B.   Project Level Accounting Not Performed

     The Department did not account for grant costs at the project level as required by Federal
     regulations and the grant agreements for Sportfish Investigation and Conservation
     (F-2-R-31 and F-2-R-32), Aquatic Education (F-10-E-5 and F-10-E-6), and Wildlife
     Investigations and Conservation (W-1-R-22 and W-1-R-23). For example, Grant F-2-R-
     31 consisted of 16 project components, each with a separate budget. Instead of reporting
     costs by component so that actual costs could be compared to budgeted amounts, the
     Department accounted for and reported costs for the grant in total.

     According to 43 C.F.R. § 12.60(a)(2), a grantee’s financial management system must
     permit the tracing of funds to a level of expenditure sufficient to establish that such funds
     have been used solely for authorized purposes.

     This issue arose because the Department did not have an internal recordkeeping system to
     accumulate and track costs at the project level. The Department instead assigned each
     grant a single account in which it recorded expenditures in the accounting system.
     Without the ability to track expenditures at the project level, neither the Department nor
     FWS can ensure that funds are spent in accordance with the approved grant and project
     budgets.


                                               7
     We reported a similar condition in our prior audit report (No. R-GR-FWS-0013-2004,
     Recommendation E); therefore, we are repeating the applicable recommendation from
     that report and have made a new recommendation. Implementation of the repeat
     recommendation will be tracked under the resolution process for the prior audit report.

     Repeat Recommendation

     We recommend that FWS require the Department to implement a cost accounting system
     that is sufficient to account for and report grant costs at the project level.

     New Recommendation

     We recommend that FWS require the Department to determine and report project costs
     for all Program grants awarded in FYs 2007 and 2008.

     Department Response

     The Department concurred with the recommendations at the Exit Conference.

     FWS Response

     FWS Regional officials concurred with the recommendations and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     Based on the FWS response, additional information is needed in the corrective action
     plan, including:

        •   the specific action(s) taken or planned to address the recommendations;

        •   targeted completion dates;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Labor Charged to Grants Based on Budget Percentages

     Three Department employees perform work under more than one Program grant
     throughout the fiscal year. However, rather than charging the Program grants for the
     actual time these individuals worked on authorized grant activities, the Department
     allocated their labor charges based on budget percentages. As a result, FWS has no


                                             8
means to ascertain whether it is reimbursing the Department the correct amount for work
performed by employees under the grants.

This practice is contrary to 2 C.F.R. § 225, Appendix B, Subsection 8.h(4), which notes
that when employees work on multiple activities or cost objectives, a distribution of their
wages must be supported by personnel activity reports or equivalent documentation. The
documentation must reflect the distribution of each employee’s actual activity.
Distribution percentages that are predetermined and used after employees perform the
services do not qualify as support for charges to federal awards.

Department officials stated that they charged labor based on budget percentages because
the accounting system could not record charges made to more than one grant by a single
employee. However, officials at the Department of Treasury, which maintains the
accounting system and bills FWS for reimbursements under the Program, informed us
that the accounting system does in fact have the requisite capability. Due to this practice
of charging labor to Program grants based on budget percentages, FWS is unable to
determine whether it is reimbursing the Department the correct amount for work
performed by employees under the grants.

Recommendations

We recommend that FWS:

1. determine whether the Department received any excess reimbursements for labor
   costs inappropriately allocated to the Program grants and resolve any overpayments
   and

2. require the Department to charge labor to Program grants based on actual time
   worked.

Department Response

The Department concurred with the recommendations at the Exit Conference.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they would
work with the Department in developing a corrective action plan to resolve the
recommendations.

OIG Comments

Based on the FWS response, additional information is needed in the corrective action
plan, including:

   •   the specific action(s) taken or planned to address the recommendations;

                                         9
        •   targeted completion dates;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

D.   Questionable Grant Compliance

     The Department purchased a research vessel and boatlift in 2007, using funds provided
     under Grant F-2-R-32 for Sportfish Investigation and Conservation. However,
     Department personnel did not fully track the maintenance and usage of these items, as
     required by the grant agreement. The Department’s acquisition of these items, according
     to the agreement, was contingent upon the development of usage logs and maintenance
     records for the vessel and boat lift.

     This issue arose because the Department did not enforce the requirement that personnel
     consistently fill out the maintenance and usage logs. Specifically, the logs provided only
     about one month’s worth of information, even though Department personnel informed us
     that they operated the vessel and boatlift nearly every day. As a result, the Department
     could not demonstrate whether this equipment had been adequately maintained or used
     only for Program-related purposes.

     Recommendation

     We recommend that FWS ensure the Department enforces all requirements related to
     property acquired under Grant F-2-R-32.


     Department Response

     The Department concurred with the recommendation at the Exit Conference.

     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     Based on the FWS response, additional information is needed in the corrective action
     plan, including:

        •   the specific action(s) taken or planned to address the recommendation;


                                             10
•   targeted completion dates;

•   titles of officials responsible for implementing the actions taken or planned; and

•   verification that FWS headquarters officials reviewed and approved of actions
    taken or planned by the Department.




                                     11
                                                                        Appendix 1



                           AMERICAN SAMOA
            DEPARTMENT OF MARINE AND WILDLIFE RESOURCES
               F INANCIAL SUMMARY OF R EVIEW C OVERAGE
             OCTOBER 1, 2006, THROUGH SEPTEMBER 30, 2008


                                             QUESTIONED COSTS (FEDERAL SHARE)
   GRANT        GRANT      CLAIMED
  NUMBER       AMOUNT        COSTS           INELIGIBLE   UNSUPPORTED     TOTAL
F-2-R-31        $976,905     $935,301          $1,400         $258         $1,658
F-2-R-32         920,945      678,304           2,047          692          2,739
F-10-E-5         179,272      147,365                          116            116
F-10-E-6         154,839      108,757                           58             58
F-11-B-2         435,339      419,121           8,869                       8,869
FW-1-C-20        304,595      299,237                           77             77
FW-1-C-21        294,706      284,031           2,680           71          2,751
W-1-R-22         398,207      231,559                          191            191
W-1-R-23         372,592      210,642                          166            166
Totals        $4,037,400   $3,314,317         $14,996       $1,629        $16,625




                                        12
                                              Appendix 2


              AMERICAN SAMOA
DEPARTMENT OF MARINE AND WILDLIFE RESOURCES
               SITES VISITED

                 Headquarters

                   Fagatogo

             Boating Access Areas

              Pago Pago Boat Ramp
               Fagasa Boat Ramp




                   13
                                                                          Appendix 3

                             AMERICAN SAMOA
              DEPARTMENT OF MARINE AND WILDLIFE RESOURCES
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                 Status                        Action Required
A.1, A.2, B (New),   FWS management concurs           Additional information is needed in
C, and D             with the recommendations, but    the corrective action plan, including
                     additional information is        the actions taken or planned to
                     needed as outlined in the        implement the recommendations,
                     “Actions Required” column.       targeted completion date(s), titles of
                                                      officials responsible for
                                                      implementing the actions taken or
                                                      planned and verification that FWS
                                                      officials reviewed and approved of
                                                      actions taken or planned by the
                                                      State. We will refer
                                                      recommendations not resolved
                                                      and/or implemented at the end of 90
                                                      days (after March 8, 2010) to the
                                                      Assistant Secretary for Policy,
                                                      Management and Budget for
                                                      resolution and/or tracking of
                                                      implementation.
B (Repeat)           Repeat Recommendation B is       Provide documentation regarding
                     from our prior report ((No. R-   the resolution and implementation
                     GR-FWS-0013-2004,                of this recommendation to PMB.
                     Recommendation E). PMB
                     considers this
                     recommendation resolved but
                     not implemented.




                                      14
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
